OIG Investigative Reports, Former Sheriff Deputies Sentenced to Jail for Education Fraud Conspiracy
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Jackson, Mississippi April 10, 2001
United States Attorney
Southern District of Mississippi
188 East Capital Street, Suite 500
Jackson, Mississippi 39201
Tel.: 601-965-4480
Former Sheriff Deputies Sentenced to Jail for Education Fraud Conspiracy
James B. Tucker, the United States Attorney for the Southern District of Mississippi, announced that BRUCE G. CARVER, SR., 58, of Long Beach, and EDMUND J. HUGUET, SR., 44, of Saucier, Mississippi, were sentenced today for their involvement in a conspiracy to defraud a federally funded inmate education program at the Harrison County Jail. Both defendants were sentenced before United States District Judge Walter J. Gex, III, in federal district court in Biloxi. Defendant CARVER was sentenced to 31 months of imprisonment, to be followed by three years of supervised release, and was ordered to pay $71,906.00 in restitution. Defendant HUGUET was sentenced to 24 months of imprisonment, to be followed by three years of supervised release, and was ordered to pay $70,742.00 in restitution. Both defendants will remain on bond pending reporting for sentencing on June 11, 2001.
Defendants CARVER and HUGUET were found guilty on October 5, 2000, when the jury returned a verdict of guilty against both defendants on all counts following a two-week trial. As described in the indictment, defendant CARVER and HUGUET served as Deputy Sheriffs with the Harrison County Sheriff's Department and instructors with the Mississippi Gulf Coast Community College. As charged in the indictment, the defendants falsely represented that inmates at the Harrison County Jail earned grades as students who had satisfactorily completed the course requirements under the inmate training program. The indictments alleged that the defendants prepared false documents, including grade sheets, fraudulently representing that inmates had satisfied the requirements for their courses of instruction, whereas, in truth, during some or all of the period of instruction, a substantial number of these inmates were either not incarcerated at the Harrison County Jail or were assigned to other work areas.
According to the indictment, both defendants participated in a conspiracy to obtain money by fraud in a value of $5,000.00 or more which was under the control of an organization receiving more than $10,000.00 in benefits annually under a Federal program. The conspiracy also involved making and using false writings containing materially false statements in a matter within the jurisdiction of the United States Department of Education.
Under the inmate program which was funded in part with federal funds, each instructor was required to teach a minimum of ten students per semester. The areas of instruction included food preparation, automotive, agricultural business, and welding. CARVER served as a food service instructor for the program; HUGUET was automotive instructor.
Assistant United States Attorneys GAINES CLEVELAND and PETER BARRETT are the prosecutors in charge of the case.
Mr. TUCKER praised the efforts of the United States Department of Education Office of the Inspector General and the Federal Bureau of Investigation for their diligent work in the investigation of this case.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov